Audit Report

Tribal Youth Program Grant
Awarded to the Chickasaw Nation, Ada, Oklahoma

Audit Report No. GR-80-05-004


March 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of the Tribal Youth Program grant 2001-TY-FX-0007 awarded by the U.S. Department of Justice, Office of Justice Programs, Office of Juvenile Justice Delinquency Prevention, to the Chickasaw Nation located in Ada, Oklahoma.  The purpose of this program was to enhance Indian country law enforcement and to improve the administration of juvenile justice on Indian reservations and in Alaskan Native villages.  The program objectives are to support tribal efforts to address the problems of juvenile crime by undertaking one or more of the following:  1) reduce, control, and prevent crime and delinquency by and against tribal youth, 2) provide interventions for court-involved tribal youth, 3) improve tribal juvenile justice systems, and 4) provide prevention programs focusing on alcohol and drugs.  On April 6, 2001, the Chickasaw Nation was awarded a total of $498,170 to support the interventions for court-involved tribal youth and improvements to tribal juvenile justice systems.  

We tested the Chickasaw Nations compliance with essential grant conditions and found weaknesses in three areas  reporting, drawdowns, and grant expenditures.  Our report contains seven recommendations to address these weaknesses, which are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope, and methodology appear in Appendix I of this report. 

As a result of the deficiencies found, we question costs in the amount of $52,711 and report that there are funds to better use in the amount of $20,701.1    We discussed the results of our audit with the Chickasaw Nation Tribal Youth officials and have included their comments in the report, as applicable. 
  



Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for the definition of questioned costs and funds to better use.